          HEARING BEFORE THE
   SUBCOMMITTEE ON FINANCIAL SERVICES
        AND GENERAL GOVERNMENT
      COMMITTEE ON APPROPRIATIONS
              U.S. SENATE




                 April 16, 2008

                Washington, DC

        The Honorable J. Russell George
Treasury Inspector General for Tax Administration
                         STATEMENT OF
               THE HONORABLE J. RUSSELL GEORGE
      TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                             before the
             SUBCOMMITTEE ON FINANCIAL SERVICES
                   AND GENERAL GOVERNMENT
                 COMMITTEE ON APPROPRIATIONS
                           U.S. SENATE



                                       April 16, 2008

        Chairman Durbin, Ranking Member Brownback, and Members of the
Subcommittee, thank you for the opportunity to testify today. My comments will focus
on the Internal Revenue Service’s (IRS) Fiscal Year 2009 budget and, at your request, the
Treasury Inspector General for Tax Administration’s (TIGTA) Fiscal Year 2009 budget
request. I will also briefly comment on the status of the 2008 Filing Season.
        The IRS administers America’s tax laws and collects approximately 95 percent of
the revenues that fund the Federal Government. The IRS has four major components: the
Wage and Investment Division, the Small Business/Self-Employed Division, the Large
and Mid-Size Business Division and the Tax Exempt and Government Entities Division.
Together, these divisions are largely responsible for collecting more than $2 trillion in tax
revenues each year. At a time when our nation is at war, it is imperative to identify the
resources required to support the IRS’s role as steward of the country’s tax administration
system.
         The IRS must continue to address management and operational issues, including
modernization of its computer systems, addressing the tax gap, protecting taxpayer rights,
and ensuring the security of its resources. To that end, the IRS has requested $11.4
billion to fund the agency’s operations for Fiscal Year 2009. This is a 4.3 percent
increase over the 2008 enacted budget. The IRS’s Fiscal Year 2009 budget request for
systems modernization is $40 million less than the Fiscal Year 2008 enacted amount.
The IRS does not specify which programs will absorb these costs, only that the requested
amount will allow continued progress on key modernization projects. However, millions
of taxpayers entrust the IRS with sensitive financial and personal data stored and
processed by its computer systems. The IRS faces enormous challenges in securing this
vast amount of personally identifiable information, including ensuring that all systems
have sufficient controls to prevent and detect intrusions and improper accesses.
        The budget request includes a 7 percent increase for enforcement and less than a
1 percent increase for taxpayer service. In 2007 the IRS finalized strategies to reduce the
tax gap and improve customer service.1 The IRS is in the preliminary stages of both
strategies. Determining what role taxpayer service plays in increasing voluntary

1
 Reducing the Federal Tax Gap: A Report on Improving Voluntary Compliance (Washington, D.C.:
Aug. 2, 2007); The 2007 Taxpayer Assistance Blueprint Phase 2 (Washington, D.C.: 2007).


                                                2
compliance and reducing the tax gap will continue to be a challenge in the near future.
The IRS must strive to enforce the tax laws fairly and efficiently while balancing service
and enforcement to promote voluntary compliance and reduce taxpayer burden.
Overview of the IRS’s Fiscal Year 2009 Budget Request
        The proposed Fiscal Year 2009 IRS budget requests approximately $11.4 billion
in direct appropriations, $107.9 million from reimbursable programs, and $177.7 million
from user fees. The direct appropriation is approximately a $469.1 million increase
(4.3 percent) over the Fiscal Year 2008 enacted level of $10.9 billion.
        In Fiscal Year 2008, the IRS requested a budget of approximately $11.1 billion,
an increase of $498 million (4.7 percent) over its Fiscal Year 2007 spending authority.
The amount enacted by Congress for Fiscal Year 2008 was $203 million (1.8 percent)
less than the budget request. Congress also made substantial changes in budget priorities
in Fiscal Year 2008 by increasing the Taxpayer Services appropriation by $46.9 million
above the IRS’s request while cutting the Administration’s Enforcement and Operations
Support appropriation requests by a total of $235 million. The budget request also
included a net increase in the overall size of the IRS of nearly 1,800 Full-Time
Equivalent2 employees.
        The Fiscal Year 2009 IRS budget request includes appropriations for five IRS
budget accounts (categories): Enforcement, Operations Support, Taxpayer Services,
Business Systems Modernization, and the Health Insurance Tax Credit Administration
(see Figure 1).
                        Figure 1: IRS Fiscal Year 2009 Budget Request
                                         (in millions)
                                                            Health Insurance Tax
                 Business Systems                             Credit Adm, $15
                 Modernization, $223                                (0.1%)
                       (1.9%)
                                                                               Taxpayer Services,
                                                                                  $2,150 (19%)
     Operations Support,
        $3,856 (34%)



                                                                          Enforcement, $5,117
                                                                                 (45%)



    Source: TIGTA analysis of Fiscal Year 2009 IRS Budget Request by IRS Budget Accounts.
       Within these appropriation accounts, the IRS seeks to increase funding for
Enforcement, Operations Support, and the Health Insurance Tax Credit Administration
while decreasing funding for Business Systems Modernization (Modernization). The
budget request seeks an Enforcement Appropriation of $5.12 billion, an increase of

2
 A Full-Time Equivalent is a measure of labor hours. One Full-Time Equivalent is equal to eight hours
multiplied by the number of compensable days in a particular fiscal year.


                                                   3
$337 million (7.1 percent) over the current Fiscal Year 2008 appropriation of
$4.78 billion. The funding for Taxpayer Services remains the same as the Fiscal
Year 2008 enacted level.
        The Modernization program is a complex effort to modernize IRS technology and
related business processes. It involves integrating thousands of hardware and software
components while replacing outdated technology and maintaining the current tax system.
         The Modernization program is in its 10th year and has received approximately
$2.5 billion for contractor services. Additionally, the IRS had spent $265 million through
Fiscal Year 2007 for internal IRS costs, and plans to spend an additional $223 million on
the program in Fiscal Year 2008. According to the IRS’s original plan, the
Modernization program should be past the halfway point in Calendar Year 2008.
However, the IRS has not completed as many Modernization projects as planned because
it has received less funding than initially anticipated and has had difficulties in
managing the scope and complexity of the work. For example, the Customer Account
Data Engine (CADE) is the foundation of the Modernization program. The IRS
originally planned to complete replacement of its Individual Master File with the CADE
in 2005.3 The current estimated completion date for this replacement is 2012.
       Although the IRS has made advances in its Modernization effort, it has not
progressed as anticipated. TIGTA has reported that inconsistent compliance with project
development controls has contributed to delays in project deliveries, increased
development costs, and reduced capabilities.4 Since Fiscal Year 2002, TIGTA’s
Modernization program annual assessments have cited the following four specific
challenges the IRS needs to overcome to deliver a successful modernization effort:
    1. Implement planned improvements in key management processes and commit
       necessary resources to enable success;
    2. Manage the increasing complexity and risks of the Modernization program;
    3. Maintain the continuity and strategic direction with experienced leadership; and
    4. Ensure that contractor performance and accountability are effectively managed.
        Accordingly, because solutions to the IRS’s serious and intractable financial
management problems largely depend upon the success of its Modernization efforts, in
January 2005 the financial management risk was combined with the Modernization risk
into the Business Systems Modernization high-risk area.5 Modernization remains a high
risk for the IRS. One reason is that all of its new systems need to include adequate audit
trails.

3
  The Individual Master File is the IRS database that stores individual taxpayer account information.
4
  Annual Assessment of the Business Systems Modernization Program (Reference Number 2007-20-121,
dated August 24, 2007).
5
  In January 2005, the Government Accountability Office (GAO) combined its two previous high-risk
areas, IRS Business Systems Modernization and IRS Financial Management, into one Business Systems
Modernization high-risk area. See U.S. Government Accountability Office, GAO-05-207, High Risk
Series: An Update (2005).


                                                   4
       For Fiscal Year 2008, the IRS requested funding of approximately $222.7 million
for Modernization, a cut of 16.6 percent ($44.4 million from the $267.1 million enacted).
This cut is expected to eliminate at least 25 employees. However, the Fiscal Year 2008
enacted amount was an increase of $54.4 million (25.6 percent) from the $212.7 million
enacted for Fiscal Year 2007.
        The Fiscal Year 2009 budget request does not specify which programs will absorb
the cuts, although it states that the requested amount will allow continued progress on key
modernization projects, including the CADE, Accounts Management Services (AMS),
and Modernized e-File (MeF). However, the Government Accountability Office (GAO)
recently issued a report that included proposed spending by major project.6 Figure 2
shows the funding proposed for major Modernization projects in Fiscal Year 2009
compared to the amounts enacted for Fiscal Year 2008:

                   Figure 2: Business Systems Modernization Projects
                        in Fiscal Year 2009 IRS Budget Request
                                             Fiscal                               Change from
                                           Year 2008     Fiscal Year 2009       Fiscal Year 2008
                                            Enacted      Budget Request             Enacted
                 Project                   (Millions)        (Millions)             (Millions)
  Customer Account Data Engine               $58.5               $58.8                    $0.3
  Accounts Management Services                29.0                 26.2                   (2.8)
  Modernized e-File                           55.8                 25.0                 (30.8)
  Core Infrastructure                         39.2                 32.0                   (7.2)
  Architecture, Integration, and
  Management                                   35.1                35.0                  (0.1)
  Management Reserve                             4.3                2.3                  (2.0)
  SUBTOTAL: Capital Investments             $221.9              $179.3                 $(42.6)
  Business Systems Modernization
  Labor                                        44.0                42.0                  (2.0)
  SUBTOTAL: Program Request                 $265.9              $221.3                 $(44.6)
  Maintaining Current Levels                     1.2                1.4                    0.2
  TOTAL Business Systems
  Modernization Budget                      $267.1              $222.7                 $(44.4)
Source: TIGTA analysis of GAO Report, Internal Revenue Service: Fiscal Year 2009 Budget Request and
Interim Performance Results of IRS's 2008 Tax Filing Season (GAO 08-567, dated March 2008).

       TIGTA requested information from the IRS on the impact of the proposed
funding on the projects above, which the IRS declined to provide. The IRS also declined
to provide this information to GAO for its report.
Customer Account Data Engine
       The IRS states that the CADE is the lynchpin modernization project to replace the
antiquated master file. The master file currently requires two weeks to update taxpayer

6
 Internal Revenue Service: Fiscal Year 2009 Budget Request and Interim Performance Results of IRS's
2008 Tax Filing Season, (GAO 08-567, dated March 2008).


                                                  5
tax accounts. The CADE consists of current and planned databases and is designed to
post information to taxpayers’ accounts daily rather than weekly, which will facilitate
faster refunds to taxpayers and provide IRS employees with more up-to-date and accurate
account information.
        The latest release of the CADE, Release 3.0, was originally developed to deliver
17 new functions and capabilities. The IRS divided Release 3.0 into two sub-releases.
CADE Release 3.1 contained four major functions and was deployed between August
and October 2007. CADE Release 3.2 included seven major functions and was delivered
in February 2008. The major functions delivered include the capability of processing tax
returns with a disaster area designator; processing tax returns claiming the Earned Income
Tax Credit, Credit for Child and Dependent Care, and requests for Split Refunds;
providing address change service requests; and validating tax balances. The remaining
six functions will be determined for delivery in future releases of the CADE. These
additional capabilities were expected to significantly increase the volume of returns
posting to the CADE from the approximately 11.2 million returns posted during Calendar
Year 2007. As of March 28, 2008, about 21.1 million tax returns had been posted to the
CADE.
         In 2009, the IRS plans to continue the development of the CADE in stages, and
its Fiscal Year 2009 budget request includes $58.8 million for the project. TIGTA’s
review of CADE Release 2.1 found that tax return information was accepted and
generally posted accurately to CADE accounts during the 2007 Filing Season.7 However,
several programming problems were affecting the accurate posting of Itemized
Deductions, Adjusted Gross Income, and Taxable Income amounts. TIGTA reported this
issue to the IRS, and it promptly corrected the programming. TIGTA is currently
reviewing the accuracy of the expanded capabilities offered by the most current release of
the CADE.8
Accounts Management Services Project
        The IRS is continuing to modernize its databases to provide immediate access to
account data, enable real-time transaction processing, and ensure daily account settlement
to improve customer service and business results. The Accounts Management Services
(AMS) project, initiated in May 2006, was chartered to address these needs. The project
objective is to provide an integrated approach to view, access, update, and manage
taxpayer accounts. This is accomplished by providing IRS employees with the tools to
access information quickly and accurately in response to complex customer inquiries and
to update taxpayer accounts on demand. The Fiscal Year 2009 budget request includes
$26.2 million for the AMS project.
        In March 2008, TIGTA determined that the AMS project team successfully
implemented project management processes and activities, which included project
justification, contract management, risk management, configuration management,



7
  The Customer Account Data Engine Release 2.1 Generally Posted Tax Return Information Accurately
(Reference Number 2007-40-131, dated August 10, 2007).
8
  Customer Account Date Engine Release 3, (Audit Number 2008-20-009).


                                                 6
performance management, and transition management.9 The AMS project team
successfully planned work schedules, identified and addressed potential risks to project
development, and coordinated with appropriate staff to implement initial release
capabilities. Although the AMS project team is on schedule to make the proposed
processing capabilities available, its implementation is dependent on the IRS’s
Modernization and Information Technology Services organization’s abilities to integrate
these project capabilities into taxpayer account processing.

         The IRS, however, does not collect all transactions and audit logs on its
modernized systems, including CADE and AMS. Without audit logs, the IRS cannot
conduct proper intrusion investigations and hold individuals accountable for unauthorized
transactions and disclosures.
Modernized e-File
        The MeF project provides a standard filing structure for all types of IRS tax
returns and can meet performance and capacity needs with enhanced and up-to-date
technologies, therefore providing greater appeal to external customers and stakeholders.
The MeF project’s goal is to replace the IRS’s current tax return filing technology with a
modernized, Internet-based electronic filing platform.
       In Fiscal Year 2009, the IRS will continue development of Release 7, which
was initiated in Fiscal Year 2008. Release 7 will roll out an additional 90 supporting
schedules and forms that will expand the reach of MeF to 99 percent of the e-File
population, or approximately 93.7 million filers. The IRS’s Fiscal Year 2009 budget
request includes $25 million for the MeF project.

        Previous TIGTA audits of the MeF project found that the IRS’s plans for
processing additional tax forms using the MeF system were uncertain, including plans to
schedule development of the U.S. Individual Income Tax Return (Form 1040) family. In
addition, the IRS can improve its management of requirements development and testing
activities to assure that the requirements expected and approved for deployment are the
requirements that are actually deployed.10

        Furthermore, TIGTA continues to be concerned that the IRS is developing its
modernized systems and bringing them online without adequately contemplating the
security implications.

Human Capital
       The IRS, like many organizations, is concerned about an impending retirement
wave, or brain drain. According to the IRS, 30 percent of its current employees will be

9
  The Account Management Services Project Is Meeting Its Development Goals (Reference Number
2008-20-053, dated March 3, 2008).
10
   The Modernized e-File Project Can Improve the Management of Expected Capabilities and Associated
Costs (Reference Number 2007-20-005, dated December 27, 2006); The Modernized e-File Project Can
Improve Its Management of Requirements (Reference No. 2007-20-099, dated July 9, 2007).


                                                  7
eligible to retire by 2010 and nearly 40 percent of its executives are currently eligible to
retire. The GAO has designated human capital as a “high risk” government-wide concern
and recently reported that ample opportunities exist for agencies to improve. TIGTA has
also designated the strategic management of human capital as one of the IRS’s major
management challenges.
        Due to the potential loss of institutional knowledge, the IRS has several critical
projects underway, such as a five-year strategic plan for enhancing the services it
provides to taxpayers and a complex, multiyear, multibillion dollar effort to modernize its
technology and related business processes. The IRS is also battling a tax gap,11 as well as
implementing and adjusting to changes in its managerial and executive pay structure.
        It is critical that the IRS effectively implement the human capital strategies listed
in the IRS’s Fiscal Year 2009 budget request. While acting to replace those employees
lost through retirement and other attrition, the Fiscal Year 2009 budget request seeks
more than 3,000 additional Full-Time Equivalents. The IRS states that additional
employees will lead to increased revenue of more than $2 billion by the time new
employees reach their full potential in Fiscal Year 2011. Not only will the IRS need to
place a significant focus on recruiting, it will need to ensure that new employees reach
their full potential. At this same time, the IRS will need to retain its more experienced
employees and capture the knowledge of those who leave the IRS.
     If the IRS is not able to effectively accomplish the human capital strategies:
     •   There might not be a sufficient number of qualified employees to adequately
         administer the tax code. In addition, fewer qualified employees may be on the
         front-line to assist taxpayers.

     •   The tax gap could increase if high-performing, well-trained taxpayer service and
         enforcement personnel cannot be hired and retained.

     •   The IRS might not be able to replace its leadership cadre and ensure that
         significant projects remain on track.

     •   The aging workforce could retire before its vast knowledge of tax administration
         is transferred to younger workers.
    TIGTA has an ongoing Human Capital audit strategy reviewing these areas and will
continue to monitor the IRS’s efforts to strategically plan and monitor human capital
resources to ensure having the right resources in the right place at the right time to
achieve its mission and goals.
Security of the Internal Revenue Service
        Privacy and security are growing concerns in nearly every organization, both
private and public. As technology advances, the IRS’s ability to protect sensitive
information must advance to meet new threats. In addition to the IRS’s commitment to
11
  The IRS defines the gross tax gap as the difference between the estimated amount taxpayers owe and the
amount they voluntarily and timely pay for a tax year.


                                                   8
protect sensitive taxpayer data and personally identifiable information, a robust security
program also requires adequate financial and human capital resources.
        Each year, millions of taxpayers entrust the IRS with their sensitive financial and
personal data that are stored in and processed by IRS computer systems. The risk that
this sensitive data could be compromised and computer operations disrupted continues to
increase. Both internal factors, such as the increased connectivity of computer systems
and greater use of portable laptop computers, and external factors, such as the volatile
threat environment related to increased phishing scams and hacker activity, contribute to
these risks.
Network Security
        Because the IRS sends sensitive taxpayer and administrative information across
its networks, routers and switches on the networks must have sufficient security controls
to deter and detect unauthorized use. In March 2008, TIGTA reported that access
controls for IRS routers were not adequate and reviews to monitor security configuration
changes were not conducted to identify inappropriate use.12 Of 374 accounts for
employees and contractors to access routers and switches in performing system
administration duties, 141 (38 percent) did not have proper authorization to access the
routers. Of particular concern, 27 employees and contractors had accessed the routers
and switches to change security configurations.
        To authenticate users, the IRS relies on a security application that requires users
to enter an account name and password. Users circumvented this control by setting up
unauthorized accounts that appeared to be shared-user accounts. Any person who knew
the password to these accounts could have changed configurations without accountability
and with little chance of detection. For this reason, the IRS requires that shared accounts
be used only on a limited basis and that they be subjected to special authorization
controls. However, during Fiscal Year 2007, 4.4 million (over 84 percent) of the
5.2 million accesses to the routers were made by the 34 user accounts. Audit trail
reviews necessary to detect security events were also not being conducted. The IRS
agreed with TIGTA’s findings and is taking corrective actions to address the
recommendations made to correct these weaknesses.
Database Security
        The IRS stores its taxpayer, financial, and other data in more than
2,100 databases. TIGTA reported in Fiscal Year 2008 that high-risk weaknesses continue
to exist and sufficient corrective actions have not been taken.13 TIGTA scanned IRS
networks and determined that 11 percent of the approximately 1,900 databases scanned
had one or more installation accounts with a default or blank password. A total of
369 installation accounts had default or blank passwords, including 26 containing
powerful database administrator privileges.


12
   Inadequate Security Controls Over Routers and Switches Jeopardize Sensitive Taxpayer Information
(Reference Number 2008-20-071, March 26, 2008).
13
   Internal Revenue Service Databases Continue to Be Susceptible to Penetration Attacks (Report
Reference Number 2008-20-029, dated December 14, 2007).


                                                   9
        Databases found with default or blank passwords during the scans included those
that contained personally identifiable tax information. Malicious users can exploit
accounts with default or blank passwords to steal taxpayer identities and carry out fraud
schemes.
        TIGTA made several recommendations, including ensuring that security training
is provided to employees with key security responsibilities and improving the process for
identifying and correcting accounts with blank or default passwords by expanding the
scanning criteria. IRS management agreed with all of the recommendations in the report
and plans to take appropriate corrective actions.
Improve Taxpayer Service
        Since the late 1990s, the IRS has increased its delivery of quality customer service
to taxpayers. The first goal in the IRS’s current strategic plan is to improve taxpayer
service. However, since the late 1990s, the IRS has allocated more resources to its
collection, examination, and criminal investigation functions and fewer resources to
taxpayer service functions. See Figure 3 for a comparison of funding for taxpayer service
and enforcement since Fiscal Year 2006.

                  Figure 3: Comparison of the Taxpayer Service
                        and Enforcement Appropriations
                                 (in millions)
                   $6,000


                   $5,000


                   $4,000


                   $3,000


                   $2,000


                   $1,000


                      $0
                            FY 2006     FY 2007         FY 2008    FY 2009
                                                                  Requested
                                        Taxpayer Services
                                        Enforcement
                                        Li    (E f        )

                   Source: TIGTA analysis of IRS budgets.



       As a result of this resource shift and other factors, in July 2005, Congress
requested that the IRS develop a five-year plan, including an outline of which services
the IRS should provide and how it will improve services for taxpayers. The IRS
developed the plan, the Taxpayer Assistance Blueprint, in two phases.
       The IRS is already facing challenges with its Blueprint. For the Phase I report,
the conclusions and strategic improvement themes were valid; however, not all



                                                  10
information was accurate or consistent.14 Given the importance of this plan as the IRS
moves forward, inaccuracies and inconsistencies will put the plan at risk of improperly
aligning service content, delivery, and resources with taxpayer and partner expectations.
In Fiscal Year 2007, the IRS issued its Taxpayer Assistance Blueprint Phase 2 report that
details the research and analyses efforts of the IRS and outlines the Blueprint Strategic
Plan for taxpayer services. The Phase 2 report contains information from over 100 data
sources and represents the first large-scale effort to attempt to collect data specific to
Taxpayer Assistance Center customers. In February 2008, TIGTA reported that the data
in the Phase 2 report was for the most part accurate.15

         A second review of the Phase 2 report focused on the Taxpayer Assistance
         16
Center Geographic Footprint – the IRS’s step-by-step process for future decisions
regarding Taxpayer Assistance Center locations – and found that inaccurate and
incomplete management information continues to delay its implementation.17 The IRS
has yet to determine the optimum locations for the Taxpayer Assistance Centers and
which taxpayers they most effectively serve. Additionally, of the 41 criteria used for the
Taxpayer Assistance Center Geographic Blueprint, 19 (46 percent) contained inaccurate
or incomplete data. Without accurate and complete data, the IRS cannot measure the
effectiveness of the Taxpayer Assistance Center Program or determine where to best
offer its face-to-face services.
        The IRS is also still unable to measure how closing Taxpayer Assistance Centers
might affect taxpayers and compliance. The IRS does not have the means to capture all
interactions between a Taxpayer Assistance Center employee and a taxpayer to determine
why the taxpayer visited the Taxpayer Assistance Center, what service he or she
received, and, most importantly, the effect the service or action had on the taxpayer’s
future compliance.
   The President’ Fiscal Year 2009 budget request for the Taxpayer Service
Program is $2.15 billion. The Fiscal Year 2009 funding for the direct appropriation
maintains the Fiscal Year 2008 enacted level. The Operations Support budget
provides an additional $1.5 billion to support taxpayer services.
     •    Fiscal Year 2009 program decreases include funds provided in the Fiscal
          Year 2008 enacted. Specifically, $31 million is being used for long-term
          investments that would not be duplicated in 2009, and $8 million from the
          Community Volunteer Income Tax Assistance (VITA) Matching Grant Program
          that was provided in Fiscal Year 2008 and is still available through Fiscal
          Year 2009.


14
   The Strategic Improvement Themes in the Taxpayer Assistance Blueprint Phase I Report Appear to Be
Sound; However, There Were Some Inaccurate Data in the Report (Reference Number 2007-40-078, dated
March 18, 2007).
15
   The Taxpayer Assistance Blueprint Phase 2 Was Generally Reliable, but Oversight of the Survey Design
Needs Improvement (Reference Number 2008-40-059, dated February 5, 2008).
16
   Taxpayer Assistance Centers are walk-in sites where taxpayers can receive answers to account and tax
law questions, as well as assistance in preparing their tax returns.
17
   Inaccurate and Incomplete Data Has Adversely Affected the Implementation of the Taxpayer Assistance
Center Geographic Footprint (Audit # 200740042), Draft issued March 20, 2008.


                                                  11
     •   Fiscal Year 2009 increases include an additional 426 Full-Time Equivalents and
         $14.8 million to fully fund postal costs.

         The budget request does not include funding to support any taxpayer service
initiatives that increase its 2009 request over the 2008 enacted amount. The IRS has
expended considerable resources to develop the Blueprint and many of its initiatives
would provide its customers with the same services currently available to them from
private financial organizations. Most of the Blueprint initiatives have not been funded.
The IRS must continue to find out what assistance taxpayers want and need, and ensure
that the Blueprint Strategy Plan is effectively implemented.
         The IRS is implementing a new matching grant program for the Community
VITA Grant Program with $8 million in Fiscal Year 2008 funding. The IRS’s Volunteer
Program, including the VITA and the Tax Counseling for the Elderly Programs,18 plays
an increasingly important role in the IRS’s efforts to improve taxpayer service and
facilitate participation in the tax system. TIGTA recently reviewed the Tax Counseling
for the Elderly Program and found that it has not been effectively administered. The IRS
does not have effective controls or monitoring processes to ensure that funds are
appropriately spent, and management information is not sufficient to provide adequate
oversight for the program. The IRS is using TIGTA’s audit results to develop the VITA
grant program.19
Enhance Enforcement of Tax Laws
         A compelling challenge confronting the IRS is tax compliance. Tax compliance
initiatives include the administration of tax regulations, collection of the correct amount
of tax for businesses and individuals, and oversight of tax-exempt and government
entities. Late in Fiscal Year 2007, the Department of the Treasury and the IRS issued a
report on improving voluntary compliance.20 The report outlines steps that the IRS plans
to take to increase voluntary compliance and reduce the tax gap.
        The Fiscal Year 2009 IRS budget request seeks nearly $361 million in program
increases for IRS enforcement initiatives, which account for 77 percent of the agency’s
overall funding increase of $469 million. Part of the enforcement initiative funding is
intended to hire 3,057 new IRS Enforcement and Operations Support employees who are
expected to help generate over $2 billion21 in additional annual enforcement revenue,
once the new hires reach full potential in Fiscal Year 2011. The $361 million increase is
split between three appropriation accounts: Enforcement ($261 million), Operations
Support ($97 million), and Taxpayer Services (nearly $3 million). Many of the same or
similar enforcement proposals described in the Fiscal Year 2009 budget request were

18
   The Tax Counseling for the Elderly Program is a grant program that provides free tax help to people age
60 and older using grants appropriated. The Tax Counseling for the Elderly Program appropriation was
$3.95 million for each of Fiscal Years 2005 through 2007 and $3 million in Fiscal Year 2008.
19
   Oversight and Administration of the Tax Counseling for the Elderly Program Need Improvement
(Audit # 200740041), Draft Report issued March 10, 2008.
20
   Internal Revenue Service, U.S. Department of the Treasury, Reducing the Federal Tax Gap: A Report on
Improving Voluntary Compliance (2007).
21
   Amount does not include annual $3.6 billion expected from legislative proposals.


                                                   12
included in the Fiscal Year 2008 IRS budget request but not funded by Congress in the
final appropriations bill, the Consolidated Appropriation Act of 2008.22 The programs
included in the enforcement initiatives in the Fiscal Year 2009 IRS budget request are
shown in Figure 4:



                         Figure 4: Enforcement Initiative Programs in
                             Fiscal Year 2009 IRS Budget Request
                                                      Expected                        Included in
                                                      Revenue          Staffing          Fiscal
                                                        Fiscal        Increase       Year 2008 IRS
                                            Cost      Year 2011      (Full-Time         Budget
      Program                            (Millions)   (Millions)    Equivalents)        Request
      Reduce the tax gap for small
      business/self-employed
      taxpayers                            $168.5         $981         1,608                Yes
      Reduce the tax gap for large
      businesses                              69.5          544          519                Yes
      Improve tax gap estimates,
      measurement and detection
      of non-compliance                       51.1           16          393                Yes
      Increase reporting
      compliance of U.S. taxpayers
      with offshore activity                  13.7          102          124                No
      Expand document matching                35.1          359          413                Yes
      Implement legislative
      proposals to improve
      compliance                              23.0       3,600              0               Yes
      Totals                               $360.9       $5,602         3,057
     Source: TIGTA analysis of Fiscal Year 2008 and Fiscal Year 2009 IRS Budget Requests.
Addressing the Tax Gap
        Tax compliance initiatives include administering tax regulations, collecting the
correct amount of tax for businesses and individuals, and overseeing tax-exempt and
government entities for compliance. Increasing voluntary compliance and reducing the
tax gap are currently the focus of many IRS initiatives. Nevertheless, the IRS is facing
significant challenges in obtaining more complete and timely data, and developing the
methods necessary for interpreting the data. The IRS must continue to seek accurate
measures for the various components of the tax gap and the effectiveness of the actions
taken to reduce it. Broader strategies and better research are needed to determine what
actions are most effective in addressing non-compliance.
Unreported Self-Employment Taxes Contribute to the Tax Gap
        According to the GAO, outlays from the main trust funds of the Social Security
and Medicare programs are projected to exceed revenues in the next decade. As the tax
collector for these programs, the IRS must ensure that self-employed taxpayers meet their

22
     Consolidated Appropriation Act of 2008, Public Law 110-161.


                                                    13
tax responsibilities by assessing and collecting the proper amount of self-employment
taxes. Self-employment tax is estimated to make up about $39 billion (72 percent) of
underreported employment taxes, or 11 percent of the total gross tax gap, making it one
of the largest components of the tax gap.
        TIGTA’s Fiscal Year 2007 review of the self-employment tax found that IRS
procedures were inconsistent for identifying Form 1040 reporting income on line 21 that
is potentially subject to the self-employment tax.23 Also, there was a significant problem
with assigning an audit code to tax returns with potentially unreported self-employment
taxes.
        TIGTA recommended that the IRS: (1) improve processing of those tax returns
with potential self-employment tax liabilities and provide additional training to tax
examiners; (2) strengthen reviews of tax returns for potential unpaid self-employment
taxes; and (3) reconsider the decision to cancel TIGTA’s previous recommendation to
immediately work significant unreported self-employment tax cases with refunds
available and no response or an inadequate response to any letter issued by the IRS.
        IRS management agreed with the first two recommendations and disagreed with
the third. The IRS planned to explore the possibility of expanding existing returns
processing training material issued in January 2008. However, IRS management stated
that the parameters could not be accurately identified to ensure that the IRS would not be
withholding the refunds of taxpayers who were not subject to self-employment taxes.
Based on the findings of this and previous audits, TIGTA maintained that it was feasible
for the IRS to begin examining the tax returns of taxpayers who appear to owe a
significant amount of self-employment tax, have an available refund, and have not
responded to contact letters from the IRS.
Schedule C Hobby Losses Contribute to the Tax Gap
        About 1.5 million taxpayers, many with significant income from other sources,
filed Form 1040 Schedules C (Profit or Loss From Business) showing no profits, only
losses, over four Tax Years 2002 – 2005; 73 percent were assisted by tax practitioners.
By claiming these losses to reduce their taxable incomes, about 1.2 million of the 1.5
million taxpayers potentially avoided paying $2.8 billion in taxes in Tax Year 2005.
Changes are needed to prevent taxpayers from continually deducting losses in potential
not-for-profit activities to reduce their tax liabilities.
         The “hobby loss” provision and related regulations do not establish specific
criteria for the IRS to use in determining whether a Schedule C loss is a legitimate
business expense without conducting a full examination of an individual’s books and
records.24 The purpose of the hobby loss provision was to limit the ability of wealthy
individuals with multiple sources of income to apply losses incurred in “side-line”
diversions to reduce their overall tax liabilities. TIGTA reported in September 2007 that

23
   Identification of Unreported Self-Employment Taxes Can Be Improved (Reference
Number 2008-30-001, dated October 11, 2007).
24
   Internal Revenue Code Section 183 (Activities not engaged in for profit); related Treasury Regulation
Section 1.183-1.


                                                    14
332,615 high-income taxpayers received the greatest benefit by potentially avoiding
approximately $1.9 billion in taxes for Tax Year 2005.25
         The law does not require a taxpayer to have a reasonable expectation of profit;
rather, the taxpayer needs only the “objective” of making a profit. Internal Revenue
Code (I.R.C.) §183 makes it difficult for the IRS to efficiently administer tax law that
ensures taxpayers are not deducting not-for-profit losses to reduce their taxes on other
incomes year after year.
        TIGTA recommended that the IRS provide a copy of the report to the Department
of the Treasury, Office of Tax Policy, to consider legislative changes to I.R.C. § 183.
The proposal should include establishing a clearly defined standard or bright-line rule for
determining whether an activity is a business or a not-for-profit activity. Due to the large
number of these tax returns being prepared by tax practitioners, TIGTA also
recommended that the IRS continue coordinating with practitioner organizations to
encourage compliance with existing provisions.
        In their response to the report, IRS officials stated that they agreed with the
recommendations and planned to take appropriate corrective actions. The IRS plans to
coordinate with the Office of Legislative Affairs to forward a copy of the final report to
the Department of the Treasury, Office of Tax Policy, and to include key messages and
talking points about I.R.C. §183 tax obligations as a Fiscal Year 2008 outreach initiative
directed to practitioner organizations.
Legislative Proposals
       The Fiscal Year 2009 IRS Budget Request includes 16 legislative proposals –
13 submitted in prior budget requests – that are expected to generate $36 billion in
additional tax over 10 years as a result of improving tax compliance and administration.
Of the 13 proposals in prior budget requests, 12 await some form of congressional action.
Many of these proposals also represent a significant part of the IRS strategy to improve
tax compliance and reduce the tax gap described in the IRS’s August 2, 2007, report,
Reducing the Federal Tax Gap: A Report on Improving Voluntary Compliance.

                                       2008 Filing Season
        The 2008 Filing Season appears to be progressing without major problems. As of
March 29, 2008, the IRS reported that it had received approximately 86.8 million tax
returns. Of those, approximately 62.2 million were filed electronically (e-filed) (an
increase of 9.3 percent from this time in 2007), and approximately 24.6 million were filed
on paper (an increase of 4.8 percent from this time in 2007). Additionally, nearly 69.8
million refunds totaling approximately $172 billion had been issued. Of these, 50.8
million (73 percent of all refunds) were directly deposited to taxpayer bank accounts, an
increase of 7.3 percent compared to 2007.



25
  Significant Challenges Exist in Determining Whether Taxpayers With Schedule C Losses Are Engaged in
Tax Abuse (Reference Number 2007-30-173, dated September 7, 2007).


                                                 15
       Use of the IRS’s free online filing program had been declining in prior years.
However, based on the current volume, it appears that taxpayers are increasingly taking
advantage of this option, as the number has increased by 17.4 percent from 2007.
Additionally, the number of taxpayers who e-file from their home computers increased
by 17.3 percent this filing season.
         So far this filing season, over 2 million tax returns have been prepared by
volunteers, an increase of 22 percent over the 2007 Filing Season. TIGTA’s accuracy
rate at the Volunteer Program sites has improved from 56 percent last year to 67 percent
this year. The IRS is reporting a 76 percent accuracy rate. Volunteers are doing a better
job using the tools and information available when preparing tax returns.
        As of March 29, 2008, use of IRS.gov is up over 19 percent, with almost
122 million visits to the Web site. Nearly 26 million taxpayers went to IRS.gov to obtain
their refund information via the “Where’s My Refund?” option, a 19.7 percent increase
over the same time period last year.
        Additionally, calls to the toll-free assistance lines are up from the 2007 Filing
Season and the Level of Service26 is lower, primarily because taxpayers are calling about
the stimulus payments. The IRS had planned to provide an 82 percent Level of Service
for Fiscal Year 2008, but has projected that the Level of Service could be as low as
74 percent. For the 2008 Filing Season (as of March 29, 2008), the IRS had already
answered about 112 percent of the planned 10.9 million assistor-answered calls. Its
80 percent Level of Service is 4.5 points lower than the actual 2007 Filing Season Level
of Service of 84.5 percent. Additionally, the IRS had planned to answer 14.8 million
automated calls but has answered 16.1 million automated calls.

Economic Stimulus Act of 200827
        In keeping with the intent of the Economic Stimulus Act of 2008, the IRS expects
to issue more than $100 billion in stimulus payments (often referred to as rebates) and is
trying to ensure that everyone who is entitled to a rebate knows what to do to receive it.
The IRS sent Economic Stimulus Payment Notices (Notice 1377) to more than 130
million taxpayers who filed a Tax Year 2006 income tax return. Beginning in May, an
additional notice will be mailed to those taxpayers eligible for the payments to explain
the payment amount and how it was calculated. The IRS believes it will receive
significantly fewer calls to its toll-free telephone information line as a result of issuing
the advance notices.
         As of March 28, 2008, the IRS had received an estimated 1.4 million tax returns
from individuals who filed them solely to receive the rebates. Because these are tax
returns that would generally not be filed, the normal IRS refund controls are not designed
for this situation. The IRS is evaluating alternatives to identify any of these tax returns
that are fraudulent so it can prevent any associated fraudulent stimulus payments.

26
   The Level of Service is the primary measure of service to taxpayers. It is the relative success rate of
taxpayers who call for services on the IRS toll-free telephone lines.
27
   Economic Stimulus Act of 2008, Pub. L. No. 110-185 (2008).


                                                      16
TIGTA is currently evaluating the controls over the processing of these tax returns and
monitoring their volume and effect on the 2008 Filing Season.
        Since the Economic Stimulus Act of 2008 was enacted, the IRS has been
receiving an average of more than 63,000 calls per day above normal volume to its toll-
free telephone lines related to the upcoming rebates. The IRS is using over
1,000 Automated Collection System28 telephone assistors to take rebate telephone calls
during their regular tours of duty and has also trained more than 500 tax examiners and
assistors who normally work taxpayer correspondence and paper casework to answer
general rebate calls.
         The IRS stopped the issuance of Automated Collection System enforcement tools
(systemic notices and letters were stopped on February 22 and systemic levies were
stopped on February 29). However, issuance of regular delinquency notices on accounts
not yet assigned to the Automated Collection System has not been stopped, and the IRS
expects to reserve 40 percent to 50 percent of the available Automated Collection System
staff to answer calls from taxpayers who respond to these notices. The IRS plans to
restart the notices when telephone demand decreases. The IRS reports that the foregone
revenue associated with these actions could be as high as $666 million.
Treasury Inspector General for Tax Administration Fiscal Year 2009 Budget
Request
        TIGTA was created by Congress to provide independent oversight of the IRS.
TIGTA’s audits and investigations protect and promote the fair administration of the
nation’s tax system. Responsibilities include ensuring that the IRS is accountable for
more than $2 trillion in tax revenue received each year. Audit recommendations aim to
improve IRS’s systems and operations while maintaining fair and equitable treatment of
taxpayers. Investigations are focused on IRS employee misconduct and infrastructure
security, as well as external attempts to corrupt Federal tax administration.
        TIGTA’s Office of Audit (OA) conducts audits that advise Congress, the
Secretary of the Treasury, and IRS management of high-risk issues, problems, and
deficiencies related to the administration of IRS programs and operations. Audits not
only focus on the economy and efficiency of IRS functions but also ensure that
taxpayers’ rights are protected and the taxpaying public is adequately served. Overall, as
of March 31, 2008, audit reports potentially produced financial accomplishments of
$172.5 million, and potentially impacted approximately 1,217,000 taxpayer accounts in
areas such as taxpayer burden, rights, and entitlements. OA develops an annual audit
plan that communicates oversight priorities to Congress, the Department of the Treasury,
and the IRS. Emphasis is placed on mandatory coverage imposed by the IRS



28
  The Automated Collection System is an integral part of the IRS process for collecting unpaid taxes and
securing unfiled tax returns from both individual and business taxpayers. When taxpayers do not comply
with the IRS’s computer-generated notices, Automated Collection System tax examiners attempt to contact
them by telephone to secure payments or unfiled returns. The Automated Collection System is the
computer system that assigns these cases to the individual tax examiners.


                                                  17
Restructuring and Reform Act of 199829 and other statutory authorities, as well as issues
impacting computer security, taxpayer rights and privacy, and financial-related audits.
OA’s work focuses on the IRS’s major management challenges, the progress in achieving
its strategic goals, the elimination of the IRS’s systemic weaknesses, and the IRS’s
response to the President’s Management Agenda initiatives.
        TIGTA’s Office of Investigations (OI) conducts investigations that protect the
integrity of IRS employees, contractors, and other tax professionals; provides for
infrastructure security; and protects from external attempts to threaten or corrupt the
administration of Federal tax laws.
       TIGTA’s OI investigates employee misconduct involving unauthorized access
(UNAX) of confidential taxpayer records, theft, false statements, financial fraud,
taxpayer abuses, and extortion.
        OI assists in maintaining IRS employee and infrastructure security by
investigating incidents of threats or assaults made against IRS employees, facilities, and
data infrastructure. As mentioned previously, the IRS’s Fiscal Year 2009 budget request
seeks a 7.1 percent increase in its enforcement appropriation. This continued focus on
enforcement has resulted in OI receiving higher levels of reported assaults and threats
against IRS personnel. Additionally, the IRS’s increasing reliance on electronic
processes has resulted in an increased need for OI to investigate and respond to cyber
attacks.
        TIGTA also investigates allegations involving external attempts to corrupt tax
administration, such as bribes offered by taxpayers to compromise IRS employees, the
use of fraudulent IRS documentation to commit crimes, taxpayer abuse and misconduct
by tax practitioners, impersonation of IRS employees, and the corruption of IRS
programs through procurement fraud.
        TIGTA faces major human capital challenges in delivering and adapting its
oversight activities to the increasingly complex and high-risk issues associated with IRS
operations. Some of these issues include detection and investigation of fraud and
electronic crime, procurement activities, taxpayer privacy, and an increasing number of
requests for IRS program reviews from Congress and other IRS stakeholders. While
adapting to this changing environment, approximately 37 percent of TIGTA employees
are eligible for retirement by Fiscal Year 2011.
       Additionally, in order to accomplish its mission, TIGTA employees need to
possess the appropriate skills. As the IRS continues to modernize and operate in an
automated environment, it is essential that TIGTA auditors and investigators are
appropriately trained to operate in this environment.
       To help address these challenges, TIGTA has initiated or is initiating the
following actions in Fiscal Year 2008:


29
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).


                                                    18
   •   Created the Office of Inspections and Evaluations whose mission is to provide
       TIGTA with additional flexibility, capacity and capability to provide value-added
       products and services to improve tax administration and promote good
       government. This function was created and staffed by a realignment of existing
       resources.

   •   Implementing a bureau-wide electronic learning management system containing a
       skills assessment program that identifies the critical skills needed for each of
       TIGTA’s major occupations and provides a means to assess resident skill levels.
       Based on the results, TIGTA will develop a strategic recruitment program to fill
       critical vacancies with the skills necessary to carry out its increasingly complex
       oversight activities and align future hiring in critical geographic areas.

   •   Building its first Senior Executive Service Candidate Development Program. The
       objective of the program is to promote a greater understanding of the mission and
       culture of the Federal Government and to train outstanding leaders and prepare
       them for the Senior Executive Service.
        Mr. Chairman, as you requested, I will discuss TIGTA’s 2009 budget needs. From
Fiscal Year 2001 to Fiscal Year 2007, TIGTA’s labor expenses have grown 20 percent
from $88 million to $106.3 million, despite a substantial reduction in Full-Time
Equivalents (a decrease of 16 percent from 938 to 792). Labor costs currently account
for 80 percent of TIGTA’s annual budget. As the number of TIGTA employees covered
under the more expensive Federal Employees Retirement System increases, labor costs
will continue to rise, reducing the funds available to TIGTA for non-labor spending.
         Since Fiscal Year 2001, TIGTA has only been able to meet its financial
obligations through Full-Time Equivalent losses and implementation of cost-cutting
initiatives in non-labor expense categories. From Fiscal Year 2001 to Fiscal Year 2007,
non-labor spending (such as training, travel, equipment, etc.) fell 9 percent from $19.5
million to $17.7 million. These costs currently consume 13 percent of TIGTA’s annual
budget.
        The Fiscal Year 2009 President’s budget request for TIGTA will be used to
continue to provide critical audit and investigative services, ensuring the integrity of tax
administration on behalf of the nation’s taxpayers. While there are a number of critical
areas in which TIGTA will provide oversight, highlights of TIGTA’s investigative and
audit priorities include:
       •   Adapting to the IRS’s continually evolving operations and mitigating
           intensified risks associated with modernization;
       •   Addressing the tax gap and enforcement efforts;
       •   Responding to threats and attacks against IRS employees, property, and
           sensitive information;
       •   Improving the integrity of IRS operations by detecting and deterring fraud,
           waste, abuse or misconduct by IRS employees;




                                             19
       •   Conducting comprehensive audits, inspections, and evaluations that include
           recommendations for cost savings and enhancing the IRS’s service to
           taxpayers; and,
       •   Informing Congress and the Secretary of the Treasury of problems and
           progress made to resolve identified issues.
       The total resources needed in Fiscal Year 2009 to support TIGTA’s mission are
$146,636,000, including $145,736,000 from direct appropriations and approximately
$900,000 from reimbursable agreements. This is a $5.2 million (3.7 percent) increase
over the Fiscal Year 2008 spending authority compared with the IRS’s 4.3 percent
increase.
        I hope my discussion of the continuing challenges that face the IRS and TIGTA
will assist you as you consider the Fiscal Year 2009 budget. Mr. Chairman and Members
of the Subcommittee, thank you for the opportunity to share my views.




                                          20
